Study of NSF’s Administrative and
         Overhead Costs


    National Science Foundation
     Office of Inspector General



         September 26, 2007
            OIG 07-2-005
Background
                 The mission of the National Science Foundation (NSF) is to
                 promote the progress of science; to advance the national health,
                 prosperity, and welfare; and to secure the national defense. In
                 pursuit of this mission, NSF invests the majority of its
                 appropriations directly in funding basic research of science,
                 engineering, and education through competitive, merit-based grants
                 and agreements. It also invests a small percentage of its
                 appropriations in its own operations in order to process research
                 proposals and manage and oversee its portfolio of research
                 awards.

                 NSF keeps track of the costs of these investments through the use
                 of a comprehensive system for integrating its budget, costs and
                 performance. The agency’s budget is built around its four strategic
                 goals of People, Ideas, Tools, and Organizational Excellence.1
                 People, Ideas, and Tools represent the areas of the scientific
                 enterprise in which the agency invests, and each is subdivided into
                 more specific categories of investments. For example, the People
                 strategic goal is made up of the investment categories of
                 Individuals, Institutions, and Collaborations. Each of the agency’s
                 programs is assigned to one of these investment categories based
                 on the program’s principal objective, and most costs expended on
                 behalf of that program are tracked at this level. The fourth goal,
                 Organizational Excellence, captures the general operations of the
                 agency and the related activities that are not specific to one of the
                 first three goals, categories, or programs. For example, funds are
                 budgeted under Organizational Excellence for the salaries and
                 benefits of NSF employees; general operating costs of the agency
                 such as rent, equipment, supplies, accounting and personnel
                 contract services; salaries and operating expenses of the National
                 Science Board and the Office of Inspector General; and agency-
                 wide activities such as major studies and outreach efforts. Thus,
                 NSF captures both direct program costs and program-specific
                 administrative and operating costs in its strategic goals of People,
                 Ideas, and Tools, and agency-wide administrative and operating
                 costs in its strategic goal of Organizational Excellence.


1
  In its new Strategic Plan for FY 2006-2011 released in September 2006, NSF realigned its strategic
outcome goals to more closely match its recently established strategic priorities. Along with this
realignment, the goals of People, Ideas and Tools evolved into Discovery, Learning, and Research
Infrastructure. Organizational Excellence is now the strategic goal of Stewardship.



                                                    1
         This framework allows the agency to budget appropriations to each
         of its programs, and subsequently track and report on its costs and
         performance under each strategic goal or investment category in its
         annual Performance and Accountability Report. This report
         includes the agency’s Statement of Net Cost, which reports the full
         costs of each of the strategic goals of People, Ideas, and Tools and
         their associated investment categories. In presenting its Statement
         of Net Cost, NSF allocates its Organizational Excellence costs to
         the investment categories in the People, Ideas, and Tools goals,
         and reports the total Organizational Excellence costs in the
         accompanying notes. In this way, the agency treats the investment
         categories under People, Ideas and Tools as its direct outputs, and
         treats Organizational Excellence as its pool of administrative and
         overhead costs, holding the cost of activities which NSF cannot
         readily assign directly to the investment categories under People,
         Idea, or Tools.

         NSF’s cost accounting methodology allows it to integrate its budget
         with its costs and performance. However, to make a clear
         distinction between costs actually invested in the conduct of
         research and education through grants and other awards, and the
         business processes and other administrative and overhead costs
         that the agency incurs in making those awards, we have defined
         the agency’s outputs as the grants and awards it makes in support
         of its mission to conduct basic research and education, and defined
         administrative and overhead expenses generally as the costs of the
         business processes and administrative work the agency incurs that
         allow it to make the grants and awards. Our audit identifies
         administrative and overhead costs based on this definition.


Objective, Scope, and Methodology
         In the conference report accompanying the FY 2005 consolidated
         appropriations for NSF, Congress requested that the Office of
         Inspector General review the portion of NSF’s budget devoted to
         administrative and overhead costs. As such, the objective of our
         audit was to identify the portion of NSF’s budgetary resources that
         were spent on administrative and overhead costs in FY 2005. To
         gain a better understanding of how NSF classifies its overhead
         costs, we reviewed pertinent documents relating to the financial
         performance and management of the agency. We also met with
         personnel from NSF’s Office of Budget, Finance and Award
         Management, executive officers of the agency, and the agency’s
         financial statement auditors (Clifton Gunderson LLP).



                                   2
We obtained and reviewed detailed reports on the agency’s Fiscal
Year (FY) 2005 costs reflecting its classification of costs under
People, Ideas, Tools and Organizational Excellence. We
reconciled these reports to the agency’s FY 2005 Statement of Net
Cost to ensure that our data was complete, and compared them to
information on NSF’s merit review panel costs from the Federal
Advisory Committee Act Database. We performed limited testing of
a judgmental sample of the transactions from these reports to
identify costs that would be classified differently using grants and
awards as NSF’s outputs rather than programs and strategic goals
to define administrative and overhead costs.

In selecting our judgmental sample, we focused on eight expense
categories where, based on our knowledge of the agency’s
operations, we expected the greatest risk that the cost classification
would be different, using our definition of NSF’s administrative and
overhead costs. Generally, these categories had high dollar values
and a mix of costs classified as overhead (Organizational
Excellence) and direct (People, Ideas, and Tools). Within each
expense category, we grouped transactions by source document
identification numbers, which are codes assigned to source
documentation in NSF’s databases. We selected two source
documentation groups within each expense category, generally the
groups with the highest dollar value and a mix of direct and
overhead costs. Within each of these groups we randomly selected
eight transactions, or fewer if the group contained less than eight
transactions. We obtained the source documentation for the
transactions, and discussed them with NSF staff as necessary to
determine their nature. Finally, we evaluated the transactions to
determine if the costs should be included in administrative and
overhead costs using our definition of NSF’s outputs. In total, out
of FY 2005 costs of $5,534.6 million, we tested 91 transactions
totaling $5.54 million: $3.16 million in Organizational Excellence,
and $2.38 million in People, Ideas, and Tools.

Because we selected our population and sample judgmentally, the
scope of our audit was limited to only those transactions that we
tested. Thus, our consideration of the classification of costs as
direct or overhead was limited and would not necessarily disclose
all material instances in which costs were not classified consistently
with our definition of overhead.

The audit was performed from March 2006 through September
2007. We conducted this performance audit in accordance with
generally accepted government auditing standards.




                           3
Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on these
objectives.




                         4
Results of Audit
                  Our audit identified $322,137,984 of administrative and overhead
                  costs for NSF in FY 2005, equal to 5.8 percent of its total gross
                  costs of $5,541,079,474.2 This was 10.2 percent greater than the
                  $292,426,388 of administrative and overhead costs reported by the
                  agency for the same period. The difference is primarily because
                  we classified as administrative and overhead NSF’s program-
                  specific merit review costs and the costs of several task orders and
                  contracts for work performed for specific programs that were
                  administrative in nature. We also included as administrative and
                  overhead the estimated costs of donated merit review services, but
                  removed the costs of two grants the agency included in
                  Organizational Excellence that we classified as a direct cost.


                  Organizational Excellence reported in FY 05        $292,426,388
                        Reclassification of Merit Review Costs         23,001,112
                        Estimate of Donated Merit Review Services       6,439,300
                        Reclassification of Task Orders and Contracts     405,309
                        Reclassification of Grants                       (134,125)

                  Administrative and Overhead Costs:                                    $322,137,984

                  These adjustments are discussed in more detail below.

                  Merit Review Costs: Merit review is the process by which NSF
                  obtains the advice and recommendations of a panel of experts to
                  assist in its decision of whether a particular research proposal
                  merits funding. Merit review panelists evaluate research proposals
                  and make award recommendations to NSF’s program officers.
                  NSF program officers take the panelists’ opinions into account,
                  along with other factors such as external reviews or funding
                  priorities as a basis to make recommendations to NSF’s Division
                  leadership to award or decline a proposal. The review takes place
                  either by mail; panel, where the reviewers assemble at a common
                  location; or a combination of the two. NSF incurs costs for the
                  reviewers’ travel and expenses when it convenes panels, but NSF
                  does not provide financial compensation for mail reviewers.

                  In FY 2005, NSF reviewed approximately 44,700 proposals, and
                  incurred $23,001,112 in panelist direct travel and expenses.

2
  This figure is higher than the $5,534,640,174 in FY 2005 gross costs reported by the agency because it
includes an additional $6,439,300 to reflect the estimated value of time donated by merit review panelists
for mail reviews, as discussed below.


                                                     5
Because it can readily identify the program that benefits from a
merit review panel, NSF allocates most merit review costs directly
to the appropriate NSF program and investment category and does
not consider them to be administrative and overhead costs.
However, because merit review costs result from a business
process that enables NSF to make grants and awards as opposed
to being part of the output, or actual grants or awards themselves,
we classified merit review costs as administrative and overhead.

Donated Merit Review Services: Unlike its panel reviewers, NSF
does not compensate mail reviewers for the time they spend
reviewing proposals at their home institutions or other locations. As
such, NSF receives an important benefit from these donated
services. To accurately reflect the resources NSF requires to
evaluate proposals for the purpose of making research and
education grants and awards, we included an estimate of the value
of these donated services in our calculation of administrative and
overhead costs.

NSF reported that it received 64,393 mail reviews during FY 2005.
The consulting firm, Booz Allen Hamilton (BAH), recently conducted
a business analysis for NSF which considered how NSF might
compensate these reviewers. After reviewing the practices of
several federal agencies and organizations and discussing the
matter with NSF staff, BAH estimated the agency might spend
between $50 and $100 in honoraria for each mail review of a
proposal. Using the rate of $100 per mail review, we estimated that
reviewers donated services worth approximately $6,439,300, and
added this amount to our calculation of the agency’s FY 2005
overhead costs. We alternatively valued the donated services by
estimating that each reviewer could spend an average of five hours
per review. Using an average annual salary of $125,000, or $60
per hour, the agency might spend $300 for each mail review.
Under this method, reviewers donated services worth
approximately $19,317,900. Although these estimates demonstrate
a significant difference in the range of costs NSF could incur if it
was required to compensate mail reviewers for their services, we
have used the more conservative estimate of $6,439,300.

Task Orders and Contracts: In our review of a sample of NSF’s
transactions, we identified two task orders and two contracts that
NSF charged directly to programs, but we included in our
administrative and overhead costs because they related to the
administrative work of the agency. These 4 transactions totaled
$405,309. The two task orders were for support of the agency’s




                           6
         computer systems, and the two contracts were for personnel
         supporting NSF programs.

         The first transaction of $27,019 was for computer and database
         support provided by BAH to the Division of Research, Evaluation
         and Communication, and was classified under the Ideas strategic
         goal. Similarly, a second transaction of $362,051 was for eJacket
         and Fastlane software development provided by BAH to the
         Division of Graduate Education, and was classified under the
         People goal. We added these two transactions in administrative
         and overhead costs because the agency’s computer systems are a
         part of NSF’s business processes, rather than a direct investment
         in science, engineering and education.

         The third transaction was for $13,587 in program officer support
         provided to the Math and Science Partnership Program under a
         contract with PRAMM Consulting, and had been classified under
         the People goal. The final transaction was for $2,652 in program
         support provided to the Engineering Research Centers program by
         a retired NSF program officer, and had been classified under the
         Ideas goal. We again added these transactions in the
         administrative and overhead costs because the services provided
         under the contracts were for overhead-type work similar to that
         performed by NSF program officers and staff.

         Reclassification of Grants: In our review of a sample of NSF’s
         transactions, we also identified two awards that NSF had classified
         as part of Organizational Excellence, but we included as direct
         costs because the grants were research related. One was an Alan
         T. Waterman award, which is an early-career grant for a young
         researcher in any field of science or engineering to conduct
         scientific research or advanced study. The other grant covered
         costs associated with a conference to educate journalists who write
         about science, which NSF had included in Organizational
         Excellence in error. These transactions totaled $134,125, which we
         classified as direct costs and therefore, excluded from
         administrative and overhead costs.

Conclusion
         In its 2006 Performance Highlights, NSF reports that, historically,
         approximately 95 percent of its budget is spent in the conduct of
         research and education and 5 to 6 percent on administrative and
         overhead expenses. Recognizing grants and awards for basic
         research as the outputs of NSF’s operations and including the
         estimated value of donated merit review services, our limited audit


                                   7
        identified 10.2 percent or $29,711,596 more than NSF reported as
        administrative and overhead in its FY 2005 Statement of Net Costs.
        By including the additional and estimated costs in administrative
        and overhead expenses, we calculate that NSF would have spent
        94.2 percent of its FY 2005 budget directly supporting research and
        education, and 5.8 percent on administrative and overhead
        expenses.

Agency Response
        NSF reviewed a draft of this report and noted that it provides a
        valuable perspective on the general framework for classifying
        administrative and overhead costs, and for gauging the overall level
        of investment under NSF’s Stewardship (Organizational
        Excellence) goal. At this time, NSF does not plan to make any
        changes to its current methods of classifying costs.

        We have attached NSF’s response to this report in its entirety as an
        appendix.




                                  8
Appendix A: Agency Response




                         9
10
